                     Closeout of M91080033




concerned his proposa
The complainant was
University, a panel
alleged that the proposal might be identical with, or strongly
similar to. one that the sub'ect had reviously co-authored with
                       of                  University, which was
submitted to another agency but never funded.       There was no
acknowledgment of this in the NSF proposal so that, by
implication, plagiarism was being alleged.
OIG examined the two proposals and interviewed the complainant
and the co-author.   We learned that the facts were as stated:
The original proposal had been co-authored and the subject had
prepared the NSF,proposal by copying extensive passages from the
previous proposal.   The co-author had not been consulted about
the preparation and submission of the NSF proposal.      He had
admitted these things to the co-author and had apologized and
offered to collaborate on some aspects of the project. We also
learned that the subject had written the first draft of the
original proposal, was listed as the PI, and in general had
contributed substantially to it. As a result, the co-author did
not believe that her contribution could be separated from the
subject's.                                     --
OIG has decided, on the basis of its acquaintance with similar
cases, that this case is not worth pursuing further because there
would be no way of identifying material in the original proposal
that was written solely by the co-author and that the subject
plagiarized. Hence it would not be possible to develop evidence
of plagiarism. However, it appears that professional discourtesy
did occur in this case. This should be remedied by encouraging
collaboration between the subject and co-author, rather than by
pursuing this case as a misconduct matter.     Consequently, this
case is being closed.




       :
September 27, 1991
